N-

IN THE SUPREME COURT OF THE UNITED STATES
Fenyang A. Stewart,
Petitioner,
v.
Wilbur Ross, Jr., and Andre Iancu,
Respondents
PROOF OF SERVICE
I, Fenyang A. Stewart, do declare that the following is true and correct, under penalty of perjury;
that on this date, APRIL 15, 2021, as required by Supreme Court Rule 29, I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI and May 25, 2021 Letter to U.S. Supreme
Court Clerk on each party’s counsel to the above proceeding, and on every other person required
to be served, who have consented to be served electronically, by sending a copy of the said
PETITION to the emails of the following persons:
Catherine Yang,
2100 Jamieson Avenue,
Alexandria, VA 22314,
email: Catherine.Yang@usdoj.gov,
Attorney for respondents; and
Hon. Elizabeth Prelogar,
Solicitor General of the United States,
Room 5614, Department of Justice,
950 Pennsylvania Ave.,
N. W., Washington, DC 20530-0001;
email: SupremeCtBriefs@USDOJ.gov.
Executed on this 25th day of May, 2021,

wy
Fenyang A. Stewart
Petitioner, Pro Se
6040 Richmond Highway Apt 707, Alexandria, VA 22303
(757) 506-4579
fstewart2@gmail.com

